Department   of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE     AMBULANCE              PAYMENTS




                 tsG,
                  J-7
                          JUNE GIBBS BROWN
                 4/        Inspector General
                      -
                            NOVEMBER   1997
             f3fl&-
                      OFFICE OF INSPECTOR                   GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, 

is to protect the integrity of the Department   of Health and Human Services programs 

as well as the health and welfare of beneficiaries served by them. This statutory 

mission is carried out through a nationwide program of audits, investigations, 

inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary 

of program and management         problems and recommends   legislative, regulatory, and 

operational   approaches   to correct them. 





                        Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components     of the 

Office of Inspector General.     It conducts short-term management        and program 

evaluations (called inspections) that focus on issues of concern to       the Department,      the 

Congress, and the public. The inspection reports provide findings          and 

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


The OEI’s Chicago Regional Office prepared this report under the direction of 

William C. Moran, Regional Inspector General, and Natalie A. Coen, Deputy 

Regional Inspector General. Principal OEI staff included: 


CHTCAGO REGION                                                        HEADQUARTERS

John Traczyk                                                          Stuart Wright 

Thomas Komaniecki                                                     Barbara Tedesco 

Suzanne Johnson                                                       Alan Levine 

Nora Leibowitz 

Anne Maxwell 

Charles Friedrich 



TO obtain   a copy of this report,   call the Chicago   Regional   Office at (312)353-4124.
Department   of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




MEDICARE     AMBULANCE            PAYMENTS




                     JUNE GIBBS BROWN
                      Inspector General

                        NOVEMBER       1997
                         OEI-05-95-00300
                 EXECUTIVE                            SUMMARY 


PURPOSE

To determine whether Medicare     reimbursement       policies and levels of payment   for
ambulance services are prudent.

BACKGROUND

From 1987 through 1995, Medicare expenditures    for ambulance services have more than
tripled. In 1987, Medicare allowed charges for ambulance services amounted to slightly
more than $600 million. In 1995, carriers paid nearly $2 billion to ambulance providers.

Medicare pays for medically necessary a L,uiance     services when the use of other
methods of transportation    would endanger the patient’s health. Two levels of service,
advanced life sups :t (ALS) and basic life support (BLS), are covered by Medicare.
Reimbursement     is based on the type of vehicle and personnel used (AIS or BLS) and
the service status (emergency or non-emergency).

FINDINGS

Medicare paymentsfor ambulanceservicesappear to lack commonsense.

In 26 States, Medicare pays more for routine, non-emergency     basic life support
transportation  than it does for advance life support emergency transportation.    The
difference, in some areas, is more than $200. In 18 States, Medicare pays more for BLS
emergency transports without supplies than with supplies. Similar anomalies exist in ALS
base rates. In 1995, the modal allowed charge for basic life support mileage was $9.25 a
mile, more than twice the allowed charge for advance life support vehicles and seven
times greater than the cost of a gallon of fuel.

Ambulance paymentpoliciesare vulnerableto fraud and abuse.

Carriers police a significant number of ambulance claims. The complexity of the current
system enables transportation     suppliers to bill for ALS services when BLS services are
provided; misrepresent    the patient’s true medical condition; and, avoid carrier program
safeguards.   Carriers report wide spread abusive situations involving unnecessary
transports, oxygen, EKGs and other services. Over the past 5 years, the Office of
Inspector General has had more than 100 convictions involving ambulance suppliers.

Problems are the resultof extremelycomplexpaymentmethodsand inconsistentpolicies.

A complex payment system encourages fraud and abuse and thwarts efforts to control
expenditures.   This complexity stems from a payment system that uses four different
billing methods, recognizes BLS and ALS vehicles, distinguishes emergency and non-


                                                  i
emergency transports, employs more than 240 different procedure codes and uses more
than 35 fiscal agents. Payment levels to ambulance providers are not based on the actual
cost of providing services within geographic areas.

Carrier interpretations  of policy contribute to variance in payments and coverage.  In 16
States the carrier considers payment for oxygen included in the BLS base rate. Other
carriers consider oxygen to be a prescription   drug and allow ambulance suppliers to bill
using a separate procedure code. Policy differences also exist with regard to EKGs,
supplies, injections and other services provided during transport.

RECOMMENDATIONS

The Health Care Financing Administration’s      (HCFA’s) well-intentioned   efforts to limit
ambulance companies to four billing methods using 37 procedure codes has been
circumvented   by idiosyncrasies of the current re r;;onable charge payment methodology
and the fee-for-service  system. At a time when most Medicare Part B services are being
paid on a fee schedule, ambulance services are among the few services the Medicare
program still reimburses on a reasonable charge basis.

Tremendous      variation in payments indicates that Medicare reimbursement        in many areas
may be too high. The reasonable charge payment mechanism has resulted in inflated
charges for ambulance services and does not accurately reflect the real cost of doing
business in an area. More importantly, the reasonable charge payment method and the
fee-for-service   system provide little or no incentive for providers to control costs. Efforts
to control expenditures     in the fee-for-service system often results in fragmentation  of
services and increased utilization.      Extensive carrier reviews of ambulance claims adds to
program costs. Fraud and abuse in this area has also been well documented.

We believe that the vulnerabilities        we found need to be addressed           as soon as possible.
We recommend    that HCFA:

  b    seek legislative     authority   to develop   a fee schedule    for ambulance         transportation.

In doing so, HCFA should take into consideration     the competitive prices available in an
area including the negotiated rates that exist between managed care entities/hospitals   and
ambulance providers.    A fee schedule could also take into account the cost of doing
business in an area, economies of scale available to providers, adjustments    for local
subsidies and other considerations  that may affect the cost of doing business.

The following     interim   steps should be taken to help develop            the fee schedule:

  b	   Instruct   carriers to examine the inherent          reasonableness      of current    allowable
       charges    and adjust them as necessary.

  b	   Work with the ambulance industry to develop clearer guidelines as to what is or is
       not included in the base rate and what mileage is intended to cover.


                                                       ii
  b 	 Eliminate separate payments for oxygen, supplies, injectables and other services
      such as EKGs. These items should be included in the base rate.

  t	   Limit the number of procedure codes available to ambulance suppliers for billing.
       At a minimum, restrict use of procedure codes to the 37 specific codes designated
       for ambulance transportation.

We believe that Medicare ambulance policies could be simplified and that unreasonable 

base rate and mileage payment levels could be reduced. Consistent coverage policies 

should be developed and the number of billing methods and procedure codes currently in 

use reduced. Elimination of many procedure codes would discourage unbundling and the 

routine use of some supplies and services designed simply to enhance payment. Items 

considered essential for life support should be included in base rate reimbursement and 

should not be paid as separate items or services. 


Actual savings from simplification and more uniform policies would depend on how base 

rate and mileage are defined and the fee schedule allowances for these services. If 

implemented, as we have suggested, we project that Medicare could save at least $242 

million annually. Fifty million dollars of these projected savings could be derived solely 

from elimination of separate payments for oxygen, supplies, injectables and other services 

such as EKGs. At least $192 million could be saved annually by limiting the allowed 

charge for mileage to the lower of actual charge or $1 per mile. 


Our savings projections are predicated on the current base rate levels remaining 

unchanged except for increases due to the inflation index charge or changes in customary 

and prevailing charges. Actual savings could be higher if the base rate allowed charge 

for non-emergency transportation is adjusted to ensure that Medicare pays the same or 

less for this service than it does for the base rate for emergency transportation. 

Structuring payments to take into account average miles per gallon, bulk purchasing 

discounts, State and local taxes and other factors could also impact projected savings. 

Savings may be lower if some base rates are increased or policies developed that permit 

unbundling of some services. 


AGENCY COMMENTS

Since issuing our draft report, Congress passed the Balanced Budget Act of 1997. This
legislation implements our recommendation and requires that HCFA establish a fee
schedule for Medicare ambulance payments. We look forward to HCFA’s regulation
that will carry out the legislation.




                                               ...
                                               111
                        TABLE                        OF              CONTENTS 


                                                                                                                    PAGE 


EXECUTIVESUMMARY                         ..........................................                                       i


INTRODUCTION              .................................................                                              1


FINDINGS         ......................................................                                                  4


 �    Payments    lack common          sense       ......................................                                4


 �    Policy vulnerabilities        ............................................                                         7


 �    Complex    payment       methods        and inconsistent                 policies     .....................        8


RECOMMENDATIONS                     ...........................................                                        12 


AGENCYCOMMENTS                      ...........................................                                        13 


APPENDIX..          ..................................................                                                A-l 

                                     INTRODUCTION 


PURPOSE

To determine whether Medicare               reimbursement     policies and levels of payment        for
ambulance services are prudent.

BACKGROUND

Ambulance services provided to Medicare beneficiaries are covered by Part B of the
Medicare program, commonly called Supplemental          Medical Insurance.   Medicare pays
for medically necessary ambulance services when “...the use of other methods of
transportation  is contraindicated  by the individual’s condition, but only to the extent
provided in regulations.“’     The Health Care Financing Administration    (HCFA)
regulations state that ambulance services are covered only if other forms of
transportation  WOUIcl endanger the Medicare beneficiary’s health.

Ambulance providers must satisfy State and local requirements         to operate within a State
and must comply with HCFA regulations to qualify for Medicare reimbursement.               The
HCFA defines an ambulance vehicle as one that must: (1) be designed specifically for
transporting   the sick or injured; (2) contain a stretcher, linens, first aid supplies, oxygen
equipment,    and other lifesaving equipment required by State or local ordinances; and,
(3) be staffed with personnel trained to provide first aid treatment.

Two distinct levels of service, advanced life support (ALS) and basic life support (BLS),
are furnished by ambulance providers.    To be considered an ALS ambulance, the vehicle
must: be equipped with specialized equipment and medications, such as defibrillators
and pulmonary/cardiac    monitors; and, maintain radio-telephone  contact with physicians
or hospitals.  In most States, the more intensive ALS services are rendered by paramedic
emergency medical technicians (EMTs), while BLS services are usually rendered by basic
or ilztemediate EMTs. Types of ALS services include:

  b     administering   intravenous medications; 

  b     defibrillating the patient; and, 

  b     performing other advanced life support              services, such as electrocardiogram 

        monitoring and airway monitoring.

Currently, ambulance reimbursement     is based on the type of vehicle and personnel used
(BLS or ALS) and the service status (emergency or non-emergency).         Ambulance
providers submit itemized bills for the services they provide to the Medicare carrier
serving their area. According to HCFA, approximately       10 percent of the Medicare Part
B patient population  uses ambulance services each year.



   l Section 1861(s)(7) of The Social Security kf.


                                                        1
Carriers process and pay claims based on the information provided by the ambulance 

companies.    From 1987 through 1995, Medicare expenditures     for ambulance services 

more than tripled. In 1987, Medicare allowed charges for ambulance services amounted 

to slightly more than $600 million. In 1994, carriers paid $1.8 billion for 21 million 

ambulance services. In 1995, carriers approved nearly 52 million ambulance services and 

paid nearly $2 billion to ambulance providers.    The average annual rate of increase in 

ambulance expenses (16 percent) exceeds the average Part B (Supplemental        Insurance) 

rate of growth of 9.9 percent.   This annual rate of growth for ambulance services is 

comparable    to the growth in expenditures  Medicare has seen in home health, cataract 

surgery, medical supplies and other problematic    areas. 


Medicare pays ambulances using customary and prevailing charge criteria. Concerns 

about the inflationary nature of this payment method led to the introduction      of an 

additional fee screen in 198.5 called the “Inflation Indexed Charge.” The aim of the 

Inflation Indexed Charge was to limit annual inceases      in Medicare allowable charges for 

certain services, including ambulance services, by restricting the rate of increase.   More 

simply put, the Inflation Index Charge became the base rate on which future increases in 

allowed charges would be based. When determining         the allowable charge for a 

procedure code billed by an ambulance supplier Medicare carriers pay the lower of the: 


                -   actual charge billed,
                -   provider’s customary charge,
                -   prevailing charge, or
                -   Intlation Indexed Charge.

In 1994, HCFA undertook a comprehensive        revision to the procedure codes used by
ambulance providers to bill Medicare.     They instructed carriers to eliminate all local
codes and to begin using standardized    coding for all ambulance services. The new
standardized  coding attempted   to accommodate     all billing patterns in use by ambulance
providers at that time, while eliminating local codes.

That same year, HCFA asked carriers to assign one of four billing methods to each
ambulance provider based on the carrier’s past experience with that ambulance company.
The four billing methodologies are summarized  as follows:

Method   1:     A single, all inclusive   charge reflecting    all services, supplies    and mileage.

Method   2: 	   One charge reflecting      all services and supplies    and a separate     charge for
                mileage.

Method   3: 	   One charge reflecting      all services and mileage     and a separate     charge for
                supplies.

Method   4:     Separate    charges   for service, mileage    and supplies.




                                                     2
Effective January 1, 1995 ambulance providers were to begin using only revised 

procedure codes and the billing method(s) they elected or were assigned by the carrier. 

Most ambulance providers bill Medicare using Methods 2 and 4. 


Previous studies by the Office of Tnspector General (OIG) have contended that Medicare 

pays unreasonably   high amounts for ambulance services. Ambulance Services for 

Medicare End-Stage Renal Disease Patierlts: Paymerlt Practices, (OEI-03-90-02131), and 

other studies conducted by carriers, reveal a high incidence of ambulance transports that 

do not meet coverage guidelines.    In addition to medically unnecessary transports, OIG 

and other researchers   have noted significant variance in payments to ambulance 

providers often within the same geographical    areas. 


METHODOLOGY 


We selected a 1 percent random sample from all Medicare claims billed by ambulance 

companies in 1995 and 1996. The 1 percent sample for 1995 was arrayed by allowed 

charges per claim and used to obtain statistical information about the universe of 

Medicare expenditures  for ambulance services. Our sample contained 189,340 claims. 


The sample was refined by merging it with HCFA’s zip code file. This enabled us to 

analyze information  by State, county and, in some cases, city. We determined   the 

minimum and maximum allowable charge for each procedure code billed by ambulance 

providers in 1995. The mean, mode and median allowable charge for each ambulance 

procedure code billed was determined    and arrayed by quartile. The number of services 

provided and the number of miles billed was also taken into consideration   when deriving 

data about the allowed charge per mile. 


Thirty-seven carriers participated   in this study. We visited 5 carriers and contacted 32 

carriers by mail. We a,bo contacted the American Ambulance Association and three 

HCFA regional offices. The contacts were made to obtain information that might help 

us determine why variance in ambulance payments and policies exists. Respondents         were 

asked for information   about ambulance policies in each State, system inequities and 

vulnerabilities. Information   on industry trends and their potential impact on the 

Medicare program was also solicited from respondents. 


The Internet was used to obtain national and regional diesel fuel costs for 1995. 

Additional information   was obtained from the Bureau of Labor Statistics, Department       of 

Transportation  and U.S. Census Department    web sites. Information  from previously 

issued reports concerning the ambulance industry was also reviewed. 





                                                3
                                      FINDINGS 


Medicare payments for ambulance services appear to lack common sense.

Medicare pays for an equal number of non-emergency       transports and emergency
transports each year. In 1995, base rate charges for emergency and non-emergency
transports each accounted for approximately    20 percent of the ambulance services paid
for by Medicare.    Mileage procedure codes accounted for a third of the services paid.
Oxygen, supplies, injections and other services make up the remaining 27 percent of the
services billed by ambulance suppliers and paid by carriers.

Medicare allowed charges differ widely from State to State, within States and within
counties.    We analyzed the variance in payment that exists for the 37 ambulance
transportation   procedure codes listed in the HCFA Common Procedure Coding System
(HCPCS).       We found tremendous   variation in payments for ALS and BLS base rates,
mileage, supplies, oxygen and other services paid by Medicare.      We compared the
differences in allowed charges to the average hourly wage, housing costs, fuel costs and
other indicators that reflect the cost of doing business in an area. There was no logical
correlation between Medicare allowed charges and these economic indicators.

Base Rate Variation

In 26 States, Medicare pays more for routine, non-emergency         basic life support
transportation   than it does for advance life support emergency transportation.         In some
areas, the amount Medicare pays for basic life support, non-emergency          transportation
exceeds the advance life support emergency base rate by more than $200. In some areas
                                                   there is no difference in the allowable
   Differences Between Ambulance Charges:          charge for ALS emergency and BLS non-
Supplies Included vs. Supp!ks Billed Scparatcly
                                                   emergency transportation.

                                                    In 18 States the carriers allow, on
                                                    average, more for the BLS emergency
                                                    base rate without supplies (A0362) than
                                                    they do for BLS emergency base rate with
                                                    supplies (A0322). In 10 States, the ALS
                                                    base rate without supplies is greater than
                                                    the ALS base rate with supplies. The
                                                    ALS base rate without supplies in New
                                                    Jersey is $175 greater than the ALS base
                                                    rate with supplies.   In Arkansas the
                                                    difference in ALS base rates with and
                                                    without supplies is only $15. In Texas
                                                    and Illinois there is no difference in the
                                                    payment for these two procedure codes.



                                                4
The allowed charge for base rate procedure codes that include supplies frequently
exceeds the average allowance for supplies billed separately.   In 1995, the median
allowed charge for supplies billed under procedure code A0398 was approximately      $10.
At the same time, we found that in many States carriers allowed significantly more than
$10 for supplies included in the base rate. In South Dakota Medicare’s allowed charge
for ALS base rates with supplies was nearly $232 more than the allowed charge for base
rate without supplies.   This charge is more than 23 times greater than the national
median allowed charge ($10) for ALS disposable supplies.

In most States, Medicare pays more for supplies when they are included in the base rate.
The difference in the allowed amounts when supplies are included in the BLS base rate
ranges from less than $2 in South Dakota to $88 in Idaho. In 22 States, the allowed
amount for ALS with supplies (A0328) differs from ALS without supplies (A0368)
anywhere from $4 in Tennessee to nearly $232 in South Dakota.            The amount allowed
for supplies included in the base rate, in .;;::;:c: cases, appears unreasonable.

Mileage Reimburser         xt Variation

Mileage accounts for nearly           1 out of every 3 services paid and nearly 15 cents out of
every dollar. In 90 percent          of the 3,844 counties in our sample, the allowed charge for
ambulance mileage was $2            or more per mile.2 In 1995, differences in the average
allowed charge for mileage          varied by as much as $26.23 a miIe.

Medicare pays more :‘or basic life support mileage than it does for advance life support
mileage. The modal allowed charge for advance life support mileage was $4.35 a mile.
The modal allowed charge for basic life support mileage was $9.25 a mile, more than
twice the allowed charge for advance life support vehicles. The allowed charge for
advance life support mileage (procedure   code A0390) ranged from 19 cents to $11.93 per
mile.

The average allowed charge per mile for a basic life support vehicle ranged from a high
of $11.19 a mile to a low of 27 cents a mile. When the mode was used for this analysis,
carrier allowances for basic life support mileage ranged from $11.46 to 20 cents a mile.
Payments by one carrier for BLS mileage varied by more than $22.14. This carrier paid
$4.10 per mile on one ambulance claim and $26.24 per mile on another claim. While
these claims represent the extremes, the average payment per mile to ambulance
providers by this carrier was $6.81.

In 1995, Medicare paid more per mile than the cost of a gallon of diesel fuel. During
1995, the average cost of diesel fuel was about $1.20 per gallon.3 One carrier’s average
allowed charge was $6.81 a mile, five times more than the cost of a gallon of fuel. If



    2 Some counties pay both ,413 and 1313 mileage. If the allowed charge exceeded $2 for both ALS and BLS
mileage, the county was counted twice. The numhcr of unique counrics in our sample was 3,144.

   3 On-highway diesel prices, self service cash price in cents per gallon, including taxes. Department   of Energy data.


                                                              5
ambulance fuel economy were three miles per gallon, this carrier would be paying at
least 1,250 percent more than the cost to replace the fuel used.

It appears that Medicare’s reimbursement     for mileage is unreasonable.  The Internal
Revenue Service (IRS) tax code and Federal travel regulations permit recovery of fuel
and depreciation  expenses related to privately owned vehicles at a rate of 31 cents a mile
or actual costs. Medicare pays more than six times the IRS allowable rate for fuel cost
and considerably more than actual fuel replacement      cost. Medicare mileage payments
exceeding $1 per mile cost the program nearly $192 million in 1995.

Other Illogical Variution

Suppliers with high base rates usually had high mileage rates and high rates for other
procedure codes they billed. Besides base rate and mileage variance, we found
considerable variation in virtually all of the procedure codes used by ambulance providers
to bill Medicare.

Allowable charges for BLS routine disposable supplies (procedure   code A0382) range
from just under $2 to more than $50 with a median allowed charge of $6.50. Disposable
                                                    supply codes used by ALS ambulance
$40                                                 providers have differences in
                                                    payments ranging from 25 cents to
$35
                                                    $95.40 with a median allowed charge
$30                                                 of $10. Some carriers consider
$25                                                 supplies to be part of the base rate
                                                    and do not reimburse ambulance
 $20
                                                    providers for supplies billed
 $15                                                separately.
$10
                                                      Allowable charges for oxygen vary by
 $5
                                                      over 550 percent.  In the State of
                                                      Wisconsin allowable charges for
           Average Allowable Charges for Oxygen       oxygen average less than $6 and in
                                                      Oklahoma they are just under $7. In
              #	   Washington     @     Vermont
                                                      Washington allowed charges average
                   Oklahoma             Wisconsin
                                                      nearly $39 and in Vermont they
                                                      average over $36. The median
                                                      allowed charge for oxygen was
determined   to be $18. In addition to the wide variance in allowed charges for oxygen we 

also found that in 21 States carriers do not pay for oxygen charges submitted by ALS 

providers.  In an equal number of States, carriers do not pay for oxygen charges 

submitted by BLS providers. 


Supplies, injectables and other services (e.g., EKGs) are not always payable when billed 

by ambulance providers.     The circumstances     under which payment maybe made varies 

from carrier to carrier, locality to locality, and by the type of vehicle used to transport the 



                                                 6
patient.  Some carriers consider supplies, injectables and other ambulance services that
are required by law to licensing requirements    as not payable. These carriers do not
recognize separate charges for these services. In 1995, Medicare allowed charges for
supplies, injectables and other services provided by during ambulance transports totaled
approximately    $50 million.



Ambulance      payment policies are vulnerable to fraud and abuse.

Carriers find it necessary to review a significant number of ambulance claims. Their
experiences in processing and paying claims has shown them that vulnerabilities     in
Medicare’s policies and procedures for paying for transportation   services are pervasive.
Carriers report manually reviewing all claims submitted by ambulance providers in 23
States. A significant number of claims submitted by providers in the remaining States are
also suspended for manual review.

Many carriers reported problems with claims that lack origin or destination modifier
codes. These codes help carriers identify transports that may not be medically necessary.
Despite carrier efforts to obtain complete claim information, HCFA data shows that
more than 500,000 base rate services were processed without modifiers indicating pick up
and destination points. Allowed charges for these services totaled more than $30 million.

Manual intervention    by the carriers in claims processing is costly. Carriers report
spending inordinate amounts of time and money developing missing information           and
verifying the accuracy of information provided on ambulance claims. In 22 States,
carriers report problems with providers who misrepresent      the bed confinement    status of
patients being transported.

Another problem repo. ted by at least one carrier involved providers who bill for supplies
when the ambulance was restocked free of charge by local hospitals.     Since the provider
incurred no expense in securing the supplies, the carrier will not pay for supplies when
they are billed by providers in this area. Other carriers are aware of this practice in
some of their jurisdictions, but they have not conducted any studies to determine if
duplicate payments may have resulted from the practice.

Another problem reported by carriers involves medically unnecessary transportation       to
dialysis centers (8 States). This problem was also documented      in an earlier OIG report
entitled, Ambulance Services for Medicare End-Stcrge Renal Disease Beneficiaries: Payment
Practices, (OEI-03-90-02131).    In 19 States the carrier reported problems with non-
approved or suspect destinations.    In 14 States carriers have problems with providers not
properly disclosing non-emergency     transports. These claims may violate Federal statutes
when ambulance suppliers falsify destination information in order to obtain payment.

In 10 States, carriers report problems with provider billings for oxygen, mileage, supplies
and other services. In these 10 States the carriers question medical necessity for oxygen
that some ambulance providers routinely provided patients.     They also find abusive
situations involving unnecessary EKGs and other services provided      during transportation 

to maximize payments from Medicare. 


Over the past 5 years, the Office of Inspector General has had more than 100 convictions 

and civil judgements   involving ambulance suppliers.   The convictions and civil judgements 

involve issues reported by carriers in this study as ongoing problems with ambulance 

claims and providers.    Appendix A provides brief summaries of several cases illustrating 

problems the Office of Inspector General has uncovered concerning ambulance services. 


The complexity of the current system enables transportation    suppliers to bill for ALS 

services when BLS services are provided; misrepresent    the patient’s true medical 

condition; and, avoid carrier program safeguards. 


Furthermore,    the current appeals system works against carrier efforts to ensure payments 

are made only for medically indicated transportation.      All carriers expressed concern 

about the incidence of medically unnecessary ambulance transports.         One carrier 

mentioned a tactic that could be used by other ambulance suppliers.         This carrier 

revealed that one ambulance provider refuses to provide information concerning medical 

necessity. A substantial number of claims are denied for failure to provide the 

information needed to determine medical necessity. The ambulance provider routinely 

appeals the carrier denials and provides the information originally requested at the 

appeal. This tactic avoids scrutiny for medical necessity by trained carrier staff and, more 

often than not, results in claims that do not meet criteria for payment being paid at the 

hearing level. While this particular practice is unique and adds to program 

administrative   costs, many carriers expressed frustration with an appeal system that they 

claim disenfranchises    them from the process. 




Problems are the result of extremely complex payment methods and
inconsistent policie?.

A complex payment system encourages fraud and abuse and thwarts efforts to control
expenditures.   This complexity stems from a payment system that uses four different
billing methods, recognizes BLS and ALS vehicles, distinguishes emergency and non-
emergency transports, employs more than 240 different procedure codes and uses more
than 35 fiscal agents to propagate different coverage policies in nearly all 50 States.

Contributing  to the lack of simplicity in the current payment system are 180 different
geographical  areas and more than 8,000 individual providers.    Using charges submitted
during the prior year, carriers annually calculate a prevailing charge and a customary
charge for each provider in each geographical     area. They also calculate an inflation
index charge for each geographical     area and each provider.




                                                8
Complex Payment System

Medicare payment levels to ambulance providers are not based on the actual cost of
providing services within geographic areas. They were originally based on the procedure
code and the charges submitted to the program by providers doing business within a
specific geographic location.   Charges submitted during the previous year for each
procedure code determined     the amount carriers would pay. Higher charges in a year
meant higher Medicare payments the following year.

In 1995, carriers were processing claims from ambulance companies using approximately
180 different procedure codes. These codes included uniform national codes defined in
the HCFA Common Procedure Coding System and local codes deemed necessary by the
carrier. In 1996, the number of procedure codes billed by ambulance providers and paid
by carriers had increased nearly 35 percent to 240 codes. In addition to the 37
ambulance transportation   codes, carriers WV-~ paying for medical supplies, injections and
a number of unknown procedures      under local codes in 1996. At this rate, the number of
different procedure codes being billed by ambulance suppliers could approach 300 by the
end of 1997.

The fee-for-service   payment system encourages providers to unbundle the services they
provide and to bill for individual components     often using procedure codes outside the 37
transportation   codes provided by HCFA. This, in effect, defeats controls, such as the
inflation indexed charge, designed to control program costs. Since October 1985,
payments for ambulnce        services have been based on the lower of customary, prevailing,
inflation indexed or actual charge submitted on a claim. In areas where reimbursement
rates were high, the resulting inflation indexed charges were high; conversely, in areas
where reimbursement      rates were low, the resulting inflation indexed charges were low.
The inflation index charge may control the growth rate in expenditures       for specific
procedure codes, however, this control is easily circumvented      when services are
unbundled and when new procedure codes added. The net result is that the payment for
the original procedure is inflated.

Inherent in fee-for-service  reimbursement     is the temptation   to accommodate    every detail
of the services provided to patients.    Fee-for-service  perpetuates    the need to create more
and more procedure codes and to develop policies to address services provided by outlier
providers.   More procedure codes means new sources for increasing revenue.            Overtime,
providers begin to use these new procedure codes not only to bill for new services but
also to unbundle the services previously included in their base rate payment.         Availability
of procedure codes for billing encourages suppliers to provide services to patients,
whether medically indicated or not, and bill the services to Medicare.         These practices
result in increased expenditures   for the Medicare program.

Lack of Unijorm Policies

Policy differences exist concerning current billing methodologies.  Carriers were 

instructed by HCFA to assign 1 of 4 methodologies     to each ambulance provider based on 

that provider’s past billing practice. This policy was not uniformly implemented    and in 

12 States providers can use more than one billing methodology.      Allowing providers to 

choose more than one method can potentially affect payment levels to the detriment of 

the program. 


Carrier interpretations  of policy contribute to variance in payments and coverage.     This 

has resulted in fragmentation    of services and disparity in coverage policy. In 16 States 

the carrier considers payment for oxygen included in the BLS base rate. In 21 States it is 

included in the ALS base rate. These carriers consider a portion of the BLS or ALS 

base rate payment as reimbursement        for oxygen. Other carriers consider oxygen to be a 

prescription  drug and allow ambulance suppliers in their area to bill for oxygen in 

addition to the base rate. 


Policy differences also exist with regard to EKGs, supplies, injections   and other services 

provided during transport.    In 30 States ambulai;ces are paid additional amounts for 

EKG services provided to patients.      In 37 States additional amounts are paid for 

disposable supplies and in 18 States additional payments are made for reusable supplies. 

In areas where providers historically itemized charges for medical supplies, injections, 

night differential and other codes, carrier policies have evolved that perpetuate   this 

fragmentation. 


The average amount paid per ambulance trip ($500) does not have a consistent and 

direct relationship to the cost of doing business in a State, county or municipality. 

Medicare’s current payment rates do not take into consideration      the cost savings that 

have taken place in the industry. 


In many parts of the country the industry is dominated by a few players. In these areas 

providers can operate more economically because they bulk purchase fuel and supplies 

and are in a better position to negotiate discounts favorable to them. They also purchase 

new technology that enables them to use satellite tracking to monitor all of their vehicles 

and to make the most efficient use of manpower.     The rise of managed care has also 

created more aggressive competition     among ambulance providers for a share of the 

managed care marketplace. 


Local practice and the reasonable charge payment system have permitted the industry to 

establish a reimbursement   environment that favors them financially. One would expect, 

Medicare to pay more for ambulance services in States such as California, Illinois, New 

York and other States where the cost of doing business is higher. Conversely, one would 

expect that Medicare would pay less in Louisiana, Mississippi and other States where the 

cost of doing business is lower. 


Using average hourly wage, housing costs, fuels costs and other measures indicative of 

the cost of doing business, we found that Medicare’s allowed charge has little or no 

relationship to the cost of doing business in an area. For example, Mississippi 

consistently ranks in the top 10 States for base rate reimbursement; yet, the average 

hourly wage paid in Mississippi ranks 47 out the 50 States. Montana ranks in the top 20 

States for these same services, while it ranks 46 out of the 50 States in per capita 

personal income for 1996. 


We asked the carriers what they believed ~1s included in Medicare’s reimbursement           for 

mileage.   In 24 States, the carrier responsible for processing claims believed the payment 

was intended to cover only the cost of replacing fuel during a covered transport by 

ambulance.    In 10 States, the carrier believed mileage reimbursement     was intended to 

cover vehicle depreciation   as well as fuel replacement   costs. An equal number believed 

the amount was intended to cover insurance cost, fuel replacement       and depreciation. 


As with base rates, Medicare’s allowed charge for mileage is derived from charges 

submitted by the providers.    This encourages providers to raise charges each year. The 

actual cost to secure fuel is not currently taken into account when determining  Medicare 

allowable reimbursement. 





                                                 11
                                RECOMMENDATIONS 


The HCFA’s well-intentioned    efforts to limit ambulance companies to four billing
methods using 37 procedure codes has been circumvented      by idiosyncrasies of the current
fee-for-service payment system. At a time when most Medicare Part B services are being
paid on a fee schedule, ambulance services are among the few services the Medicare
program still reimburses on a reasonable charge basis.

Tremendous     variation in payments indicates that Medicare reimbursement        in many areas
may be too high. The reasonable charge payment mechanism has resulted in inflated
charges for ambulance services and does not accurately reflect the real cost of doing
business in an area. More importantly, the fee-for-service     system provides little or no
incentive for providers to control costs. Efforts to control expenditure    levels in the fee-
for-service system result in fragmentation   of services and increased utilization.   Extensive
carrier reviews of ambulance claims adds to program costs. Fraud and abuse in this area
has also been well documented.

We believe that the vulnerabilities            we found need to be addressed          as soon as possible.
We recommend    that HCFA:

      b    seek legislative     authority   to develop   a fee schedule   for ambulance         transportation.

In doing so, HCFA should take into consideration     the competitive prices available in an
area including the negotiated rate that exist between managed care entities/hospitals    and
ambulance providers.    A fee schedule could also take into account the cost of doing
business in an area, economies of scale available to some providers, adjustments for local
subsidies and other consideration  that may affect the cost of doing business.

The following         interim   teps should be taken to help develop            the fee schedule:

      b	   Instruct   carriers to examine the inherent         reasonableness      of current    allowable
           charges    and adjust them as necessary.

      b	   Work with the ambulance industry to develop clearer guidelines as to what is or is
           not included in the base rate and what mileage is intended to cover.

 b	        Eliminate separate payments for oxygen, supplies, injectables and other services
           such as EKGs. These items should be included in the base rate.

      b	   Limit the number of procedure codes available to ambulance suppliers for billing.
           At a minimum, restrict use of procedure codes to the 37 specific codes designated
           for ambulance transportation.

We believe that Medicare             ambulance policies could be simplified and unreasonable                  base
rate and mileage payment             levels reduced. Consistent coverage policies should be


                                                          12
developed and the number of billing methods and procedure codes currently in use 

reduced. Elimination of many procedure codes would discourage unbundling and the 

routine use of some supplies and services designed simply to enhance payment. Items 

considered essential for life support should be included in base rate reimbursement and 

should not be paid as separate items or services. 


Actual savings from simplification and more uniform policies would depend on how base 

rate and mileage are defined and the fee schedule allowances for these services. If 

implemented as we have suggested we project that Medicare could save at least $242 

million annually. Fifty million dollars of these projected savings could be derived solely 

from elimination of separate payments for oxygen, supplies, injectables and other services 

such as EKGs. At least $192 million could be saved annually by limiting the allowed 

charge for mileage to the lower of actual charge or $1 per mile. 


Our savings projections are predicated on the current base rate levels remaining 

unchanged except for increases due to the inflation index charge or changes in customary 

and prevailing charges. Actual savings could be higher if the base rate allowed charge 

for non-emergency transportation is adjusted to ensure that Medicare pays the same or 

less for this service than it does for the base rate for emergency transportation. 

Structuring payments to take into account average miles per gallon, bulk purchasing 

discounts, State and local taxes and other factors could also impact projected savings. 

Savings may be lower if some base rates are increased or policies developed that permit 

unbundling of some services. 


AGENCY     COMMENTS

Since issuing our draft report, Congress passed the Balanced Budget Act of 1997. This
legislation implements our recommendation and requires that HCFA establish a fee
schedule for Medicare ambulance payments. We look forward to HCFA’s regulation
that will carry out the legislation.




                                              13
           APPENDIX                 A 





Examples   of Ambulance   Cases Investigated   By

       The Office of Inspector   General




                      A- 1 

0	    Three related ambulance companies in Connecticut      submitted false claims to the
      Medicare program from 1991 to 1994. The companies falsified claims to obtain
      payments for noncovered services. The false claims concealed routine
      transportation of ambulatory patients from their residences or nonskilled nursing
      homes to renal dialysis clinics in order to obtain Medicare payments.

0	    An ambulance provider convicted and sanctioned for Medicaid Fraud in 1986 used
      “front men” to form transportation    companies so she could get Medicare payments
      for ambulance service without anyone detecting she was a sanctioned provider.
      Using the fronts, the provider obtained various vehicle licenses for special need
      transportation   and then billed Medicare and Medicaid for individual services when
      multiple patients were transported   in unlicensed personal vehicles.

� 	   A St. Paul, MN based company billed Medicaid and Medicare for basic life
      support ambulance transportation,    claiming the rides were medically necessary,
      when a lesser form of transportation    would have been appropriate.   Consumers,
      too, lost money when they were billed for copayments on the unnecessary
      ambulance rides when a simple van ride would have been appropriate.

a	    In Illinois, an ambulance company was convicted of targeting nursing home
      patients and billing for ambulance services when the patients did not need an
      ambulance.     The defendants falsified medical and trip records and back dated
      them in an effort to establish the medical necessity of the ambulance transports.

0	    A case in Indiana found an ambulance provider guilty of transporting        nursing
      home residents to scheduled medical appointments       at doctors’ offices, clinics and
      hospitals.    Most ,)f the patients transported were ambulatory or in wheelchairs but
      the provider indicated on claims submitted for payment that the patients were bed
      confined.    The provider also routinely billed for oxygen which was not
      administered.

� 	   In Ohio, an ambulance provider falsified destinations,     medical necessity
      information   and ordering physician information.     For 7 years the owner altered
      trip tickets submitted by his drivers to reflect that patients were transported    to
      covered destinations when in fact patients were transported      to doctors’ offices.
      The owner would also change the trip tickets to show that patient’s were
      bedridden when in fact the patients were in wheelchairs and in some instances
      could walk. There were occasions when the company billed for ambulance
      transports when the patients were transported      in a company station wagon.




                                             A-2 

